Case: 19-1405

Document: 00117627339

Page: 1

Date Filed: 08/11/2020

Entry ID: 6359342

Not for Publication in West's Federal Reporter

United States Court of Appeals
For the First Circuit

No. 19-1405
UNITED STATES OF AMERICA,
Appellee,
v.
ELIN ROBINSON MEJÍA ROMERO,
a/k/a SIXTO RIVERA, a/k/a MEMELO, a/k/a BENITO RIVERA,
Defendant, Appellant.
APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
[Hon. Allison D. Burroughs, U.S. District Judge]
Before
Torruella, Selya, and Kayatta,
Circuit Judges.
Zainabu Rumala, Assistant Federal Public Defender, on brief
for appellant.
Andrew E. Lelling, United States Attorney, and Alexia R. De
Vincentis, Assistant United States Attorney, on brief for
appellee.
August 11, 2020

APPENDIX A 1

Case: 19-1405

Document: 00117627339

SELYA,

Circuit

Page: 2

Date Filed: 08/11/2020

Judge.

A

jury

convicted

Entry ID: 6359342

defendant-

appellant Elin Robinson Mejía Romero on charges of conspiracy to
possess with intent to distribute and to distribute heroin and
fentanyl, see 21 U.S.C § 846; distribution of heroin and fentanyl,
as well as possession with intent to distribute fentanyl, see id.
§ 841(a)(1); and unlawful reentry into the United States by a
previously deported alien, see 8 U.S.C. § 1326. The district court
sentenced him to serve a 120-month term of immurement.

The

defendant appeals, primarily challenging the district court's
denial of his motion to suppress the fruits of a warrant-backed
search

of

an

apartment

suspected

to

be

a

"stash

house"

for

narcotics and at which drugs and other incriminating evidence were
found.

After careful consideration, we conclude that the appeal

is without merit.
We have written before, with a regularity bordering on
the monotonous, words to the effect that when a trial court has
"supportably

found

the

facts,

applied

the

appropriate

legal

standards, articulated [its] reasoning clearly, and reached a
correct result, a reviewing court ought not to write at length
merely

to

hear

its

own

words

resonate."

deBenedictis

v.

Brady-Zell (In re Brady-Zell), 756 F.3d 69, 71 (1st Cir. 2014);
see, e.g., United States v. Wetmore, 812 F.3d 245, 248 (1st Cir.
2016); Moses v. Mele, 711 F.3d 213, 215-16 (1st Cir. 2013); Eaton
v. Penn-America Ins. Co., 626 F.3d 113, 114 (1st Cir. 2010);
- 2 -

APPENDIX A 2

Case: 19-1405

Document: 00117627339

Page: 3

Date Filed: 08/11/2020

Entry ID: 6359342

Vargas-Ruiz v. Golden Arch Dev., Inc., 368 F.3d 1, 2 (1st Cir.
2004); Seaco Ins. Co. v. Davis-Irish, 300 F.3d 84, 86 (1st Cir.
2002); Ayala v. Union de Tronquistas de P.R., Local 901, 74 F.3d
344, 345 (1st Cir. 1996); Holders Cap. Corp. v. Cal. Union Ins.
Co. (In re San Juan Dupont Plaza Hotel Fire Litig.), 989 F.2d 36,
38 (1st Cir. 1993).

With respect to the suppression question,

this is such a case.

We therefore reject this claim of error for

essentially the reasons spelled out in the district court's lucid
rescript, see United States v. Romero, No. 17-CR-10199, 2018 WL
4119665 (D. Mass. Aug. 29, 2018), adding only a few brief comments
relative to suppression and an additional comment relative to an
unrelated claim of error advanced by the defendant.
First:

Following the denial of a motion to suppress, we

review the district court's ultimate determination of probable
cause de novo.
Cir. 2016).

See United States v. Tanguay, 811 F.3d 78, 81 (1st

Even so, we review its findings of fact for clear

error and accept all reasonable inferences that it has drawn from
the discerned facts.
445-46

(1st

Cir.

See United States v. Coombs, 857 F.3d 439,

2017).

Here,

the

gist

of

the

defendant's

challenge to the district court's denial of his suppression motion
is that the search warrant for the suspected stash house never
should have issued because the warrant application failed to show
a sufficient nexus between the defendant, the crimes, and the
premises.

The short answer is that the warrant application must
- 3 -

APPENDIX A 3

Case: 19-1405

Document: 00117627339

Page: 4

Date Filed: 08/11/2020

Entry ID: 6359342

be read as a whole, see United States v. Schaefer, 87 F.3d 562,
565 (1st Cir. 1996), and reading it in that holistic manner dooms
the defendant's challenge.

We explain briefly.

It is an uncontroversial proposition that a warrant for
the search of premises may issue only upon a showing of probable
cause to believe that a crime has been or is being committed and
that evidence of the crime is likely to be found at the designated
location.

See United States v. Dixon, 787 F.3d 55, 59 (1st Cir.

2015); United States v. Ribeiro, 397 F.3d 43, 48 (1st Cir. 2005).
Probable cause, though, does not mean absolute certainty, see
United States v. Almonte-Báez, 857 F.3d 27, 32 (1st Cir. 2017),
and

a

showing

of

probable

cause

may

be

based

on

reasonable

inferences drawn from known facts, see United States v. Flores,
888 F.3d 537, 544-45 (1st Cir. 2018).

We — like the district

court — must afford "great deference" to the judicial officer
issuing the warrant.

United States v. Chiaradio, 684 F.3d 265,

279 (1st Cir. 2012) (quoting Illinois v. Gates, 462 U.S. 213, 236
(1983)).
These principles guide our inquiry.
set

out

in

the

warrant

application

and

Taking the facts

drawing

reasonable

inferences therefrom to the affiant's behoof, the requisite nexus
was sufficiently established.

So, too, the overall probable cause

standard was plainly satisfied.

Although the defendant, ably

represented, artfully attempts to deal with each of the facts in
- 4 -

APPENDIX A 4

Case: 19-1405

Document: 00117627339

isolation

and

attempts

to

Page: 5

Date Filed: 08/11/2020

explain

them

away,

that

Entry ID: 6359342

piecemeal

appraisal undervalues the force of the warrant application.

See

District of Columbia v. Wesby, 138 S. Ct. 577, 589 (2018) (holding
that "divide-and-conquer approach is improper" and explaining that
facts must be viewed in their totality).
an

evidentiary

presentation

constituent parts."
(1987).

may

After all, "[t]he sum of

well

be

greater

than

its

Bourjaily v. United States, 483 U.S. 171, 180

That truism applies here.
Second:

Apart from the challenged suppression order,

the defendant also contends that his convictions on three of the
drug-trafficking counts must be reversed because evidence that a
defendant has knowingly possessed some type and quantity of a
controlled substance, instead of having knowingly possessed a
particular type and quantity of a controlled substance, will not
satisfy the government's burden of proof.1

Although the district

court did not address this contention in its rescript — the point
was not before the court at that time — it may easily be dispatched.
The short of it is that we do not write on a pristine
page.

We already have addressed essentially the same argument in

an earlier case and put it to rest.

See United States v.

The parties wrangle about the standard of review applicable
to this claim of error: the defendant argues for de novo review,
while the government asserts that the claim was not properly
preserved and, therefore, review should be for plain error.
Because we conclude that the claim fails under any standard of
review, we assume for argument's sake that our review is de novo.
1

- 5 -

APPENDIX A 5

Case: 19-1405

Document: 00117627339

Page: 6

Date Filed: 08/11/2020

Entry ID: 6359342

Collazo-Aponte, 281 F.3d 320, 326 (1st Cir. 2002) (holding that
"nothing in the statutory language of § 841[] supports a mens rea
requirement" and noting that any presumption in favor of a scienter
requirement "should only apply 'to each of the statutory elements
that criminalize otherwise innocent conduct'" (quoting United
States v. X-Citement Video, Inc., 513 U.S. 64, 72 (1994))).

The

law of the circuit doctrine, a "subset of stare decisis," is one
of the "sturdiest 'building blocks on which the federal judicial
system rests.'"

United States v. Barbosa, 896 F.3d 60, 74 (1st

Cir.) (quoting San Juan Cable LLC v. P.R. Tel. Co., 612 F.3d 25,
33 (1st Cir. 2010)), cert. denied, 139 S. Ct. 579 (2018).

Under

this doctrine, which normally requires that we adhere to prior
panel decisions closely on point, see, e.g., Arevalo v. Barr, 950
F.3d 15, 20-21 (1st Cir. 2020); United States v. Chin, 913 F.3d
251, 261-62 (1st Cir. 2019), Collazo-Aponte controls our decision
here.
To be sure — as the defendant points out — the law of
the circuit doctrine admits of certain exceptions.

See Barbosa,

896 F.3d at 74 ("One such exception applies when the holding of a
previous

panel

is

contradicted

by

subsequent

controlling

authority, such as a decision by the Supreme Court, an en banc
decision of the originating court, or a statutory overruling.").
But these exceptions are few and far between:

under the only

exception arguably relevant here, the defendant would have to show
- 6 -

APPENDIX A 6

Case: 19-1405

Document: 00117627339

Page: 7

Date Filed: 08/11/2020

Entry ID: 6359342

that subsequent authority, "although not directly controlling,
nevertheless offers a sound reason for believing that the former
panel, in light of fresh developments, would change its collective
mind."

Id. (quoting Williams v. Ashland Eng'g Co., 45 F.3d 588,

592 (1st Cir. 1995)).

The defendant strives to make such a

showing, hand-picking statements from Supreme Court decisions
postdating our Collazo-Aponte opinion, see, e.g., Rehaif v. United
States, 139 S. Ct. 2191, 2195 (2019); Alleyne v. United States,
570 U.S. 99, 103 (2013); Flores-Figueroa v. United States, 556
U.S. 646, 650 (2009), and trying to cobble those hand-picked
statements into a cogent argument.
argument

depends

heavily

on

In the end, though, this
speculation

and

surmise.

Consequently, it falls well short of constituting "a sound reason
for believing that the [Collazo-Aponte] panel . . . would change
its collective mind."

Barbosa, 896 F.3d at 74 (quoting Williams,

45 F.3d at 592).
To

say

supererogatory.

more

about

Following

this

our

claim

holding

in

of

error

would

be

Collazo-Aponte,

we

hold — as did the district court — that the government had to prove
only "that the offense 'involved' a particular type and quantity
of [a proscribed] drug, not that the defendant knew that he was
distributing that particular drug type and quantity."

281 F.3d at

326.

- 7 -

APPENDIX A 7

Case: 19-1405

Document: 00117627339

Page: 8

We need go no further.

Date Filed: 08/11/2020

Entry ID: 6359342

The record reveals that the

defendant was fairly tried; that based on sufficient proof, he was
found guilty of the charged crimes beyond a reasonable doubt; and
that no reversible error was committed. For the reasons elucidated
above, including those incorporated by reference from the district
court's

rescript,

see

Romero,

2018

WL

4119665

at

*4,

his

convictions and sentence are summarily

Affirmed.

See 1st Cir. R. 27.0(c).

- 8 -

APPENDIX A 8

§ 841. Prohibited acts A, 21 USCA § 841

United States Code Annotated
Title 21. Food and Drugs (Refs & Annos)
Chapter 13. Drug Abuse Prevention and Control (Refs & Annos)
Subchapter I. Control and Enforcement
Part D. Offenses and Penalties
21 U.S.C.A. § 841
§ 841. Prohibited acts A
Effective: December 21, 2018
Currentness
(a) Unlawful acts
Except as authorized by this subchapter, it shall be unlawful for any person knowingly or intentionally-(1) to manufacture, distribute, or dispense, or possess with intent to manufacture, distribute, or dispense, a controlled
substance; or
(2) to create, distribute, or dispense, or possess with intent to distribute or dispense, a counterfeit substance.
(b) Penalties
Except as otherwise provided in section 849, 859, 860, or 861 of this title, any person who violates subsection (a) of this section
shall be sentenced as follows:
(1)(A) In the case of a violation of subsection (a) of this section involving-(i) 1 kilogram or more of a mixture or substance containing a detectable amount of heroin;
(ii) 5 kilograms or more of a mixture or substance containing a detectable amount of-(I) coca leaves, except coca leaves and extracts of coca leaves from which cocaine, ecgonine, and derivatives of ecgonine
or their salts have been removed;
(II) cocaine, its salts, optical and geometric isomers, and salts of isomers;
(III) ecgonine, its derivatives, their salts, isomers, and salts of isomers; or

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX B 9

1

§ 841. Prohibited acts A, 21 USCA § 841

(IV) any compound, mixture, or preparation which contains any quantity of any of the substances referred to in
subclauses (I) through (III);
(iii) 280 grams or more of a mixture or substance described in clause (ii) which contains cocaine base;
(iv) 100 grams or more of phencyclidine (PCP) or 1 kilogram or more of a mixture or substance containing a detectable
amount of phencyclidine (PCP);
(v) 10 grams or more of a mixture or substance containing a detectable amount of lysergic acid diethylamide (LSD);
(vi) 400 grams or more of a mixture or substance containing a detectable amount of N-phenyl-N-[1-(2-phenylethyl)-4piperidinyl] propanamide or 100 grams or more of a mixture or substance containing a detectable amount of any analogue
of N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl] propanamide;
(vii) 1000 kilograms or more of a mixture or substance containing a detectable amount of marihuana, or 1,000 or more
marihuana plants regardless of weight; or
(viii) 50 grams or more of methamphetamine, its salts, isomers, and salts of its isomers or 500 grams or more of a mixture
or substance containing a detectable amount of methamphetamine, its salts, isomers, or salts of its isomers;
such person shall be sentenced to a term of imprisonment which may not be less than 10 years or more than life and if death
or serious bodily injury results from the use of such substance shall be not less than 20 years or more than life, a fine not
to exceed the greater of that authorized in accordance with the provisions of Title 18 or $10,000,000 if the defendant is an
individual or $50,000,000 if the defendant is other than an individual, or both. If any person commits such a violation after
a prior conviction for a serious drug felony or serious violent felony has become final, such person shall be sentenced to a
term of imprisonment of not less than 15 years and not more than life imprisonment and if death or serious bodily injury
results from the use of such substance shall be sentenced to life imprisonment, a fine not to exceed the greater of twice that
authorized in accordance with the provisions of Title 18 or $20,000,000 if the defendant is an individual or $75,000,000
if the defendant is other than an individual, or both. If any person commits a violation of this subparagraph or of section
849, 859, 860, or 861 of this title after 2 or more prior convictions for a serious drug felony or serious violent felony have
become final, such person shall be sentenced to a term of imprisonment of not less than 25 years and fined in accordance
with the preceding sentence. Notwithstanding section 3583 of Title 18, any sentence under this subparagraph shall, in the
absence of such a prior conviction, impose a term of supervised release of at least 5 years in addition to such term of
imprisonment and shall, if there was such a prior conviction, impose a term of supervised release of at least 10 years in
addition to such term of imprisonment. Notwithstanding any other provision of law, the court shall not place on probation
or suspend the sentence of any person sentenced under this subparagraph. No person sentenced under this subparagraph
shall be eligible for parole during the term of imprisonment imposed therein.
(B) In the case of a violation of subsection (a) of this section involving-(i) 100 grams or more of a mixture or substance containing a detectable amount of heroin;

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX B 10

2

§ 841. Prohibited acts A, 21 USCA § 841

(ii) 500 grams or more of a mixture or substance containing a detectable amount of-(I) coca leaves, except coca leaves and extracts of coca leaves from which cocaine, ecgonine, and derivatives of ecgonine
or their salts have been removed;
(II) cocaine, its salts, optical and geometric isomers, and salts of isomers;
(III) ecgonine, its derivatives, their salts, isomers, and salts of isomers; or
(IV) any compound, mixture, or preparation which contains any quantity of any of the substances referred to in
subclauses (I) through (III);
(iii) 28 grams or more of a mixture or substance described in clause (ii) which contains cocaine base;
(iv) 10 grams or more of phencyclidine (PCP) or 100 grams or more of a mixture or substance containing a detectable
amount of phencyclidine (PCP);
(v) 1 gram or more of a mixture or substance containing a detectable amount of lysergic acid diethylamide (LSD);
(vi) 40 grams or more of a mixture or substance containing a detectable amount of N-phenyl-N-[1-(2-phenylethyl)-4piperidinyl] propanamide or 10 grams or more of a mixture or substance containing a detectable amount of any analogue
of N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl] propanamide;
(vii) 100 kilograms or more of a mixture or substance containing a detectable amount of marihuana, or 100 or more
marihuana plants regardless of weight; or
(viii) 5 grams or more of methamphetamine, its salts, isomers, and salts of its isomers or 50 grams or more of a mixture or
substance containing a detectable amount of methamphetamine, its salts, isomers, or salts of its isomers;
such person shall be sentenced to a term of imprisonment which may not be less than 5 years and not more than 40 years
and if death or serious bodily injury results from the use of such substance shall be not less than 20 years or more than life, a
fine not to exceed the greater of that authorized in accordance with the provisions of Title 18 or $5,000,000 if the defendant
is an individual or $25,000,000 if the defendant is other than an individual, or both. If any person commits such a violation
after a prior conviction for a serious drug felony or serious violent felony has become final, such person shall be sentenced
to a term of imprisonment which may not be less than 10 years and not more than life imprisonment and if death or serious
bodily injury results from the use of such substance shall be sentenced to life imprisonment, a fine not to exceed the greater
of twice that authorized in accordance with the provisions of Title 18 or $8,000,000 if the defendant is an individual or
$50,000,000 if the defendant is other than an individual, or both. Notwithstanding section 3583 of Title 18, any sentence
imposed under this subparagraph shall, in the absence of such a prior conviction, include a term of supervised release of
at least 4 years in addition to such term of imprisonment and shall, if there was such a prior conviction, include a term of
supervised release of at least 8 years in addition to such term of imprisonment. Notwithstanding any other provision of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX B 11

3

§ 841. Prohibited acts A, 21 USCA § 841

law, the court shall not place on probation or suspend the sentence of any person sentenced under this subparagraph. No
person sentenced under this subparagraph shall be eligible for parole during the term of imprisonment imposed therein.
(C) In the case of a controlled substance in schedule I or II, gamma hydroxybutyric acid (including when scheduled as
an approved drug product for purposes of section 3(a)(1)(B) of the Hillory J. Farias and Samantha Reid Date-Rape Drug
Prohibition Act of 2000), or 1 gram of flunitrazepam, except as provided in subparagraphs (A), (B), and (D), such person shall
be sentenced to a term of imprisonment of not more than 20 years and if death or serious bodily injury results from the use of
such substance shall be sentenced to a term of imprisonment of not less than twenty years or more than life, a fine not to exceed
the greater of that authorized in accordance with the provisions of Title 18 or $1,000,000 if the defendant is an individual or
$5,000,000 if the defendant is other than an individual, or both. If any person commits such a violation after a prior conviction
for a felony drug offense has become final, such person shall be sentenced to a term of imprisonment of not more than 30
years and if death or serious bodily injury results from the use of such substance shall be sentenced to life imprisonment, a fine
not to exceed the greater of twice that authorized in accordance with the provisions of Title 18 or $2,000,000 if the defendant
is an individual or $10,000,000 if the defendant is other than an individual, or both. Notwithstanding section 3583 of Title 18,
any sentence imposing a term of imprisonment under this paragraph shall, in the absence of such a prior conviction, impose
a term of supervised release of at least 3 years in addition to such term of imprisonment and shall, if there was such a prior
conviction, impose a term of supervised release of at least 6 years in addition to such term of imprisonment. Notwithstanding
any other provision of law, the court shall not place on probation or suspend the sentence of any person sentenced under the
provisions of this subparagraph which provide for a mandatory term of imprisonment if death or serious bodily injury results,
nor shall a person so sentenced be eligible for parole during the term of such a sentence.
(D) In the case of less than 50 kilograms of marihuana, except in the case of 50 or more marihuana plants regardless of
weight, 10 kilograms of hashish, or one kilogram of hashish oil, such person shall, except as provided in paragraphs (4) and
(5) of this subsection, be sentenced to a term of imprisonment of not more than 5 years, a fine not to exceed the greater of
that authorized in accordance with the provisions of Title 18 or $250,000 if the defendant is an individual or $1,000,000 if
the defendant is other than an individual, or both. If any person commits such a violation after a prior conviction for a felony
drug offense has become final, such person shall be sentenced to a term of imprisonment of not more than 10 years, a fine
not to exceed the greater of twice that authorized in accordance with the provisions of Title 18 or $500,000 if the defendant
is an individual or $2,000,000 if the defendant is other than an individual, or both. Notwithstanding section 3583 of Title 18,
any sentence imposing a term of imprisonment under this paragraph shall, in the absence of such a prior conviction, impose
a term of supervised release of at least 2 years in addition to such term of imprisonment and shall, if there was such a prior
conviction, impose a term of supervised release of at least 4 years in addition to such term of imprisonment.
(E)(i) Except as provided in subparagraphs (C) and (D), in the case of any controlled substance in schedule III, such person
shall be sentenced to a term of imprisonment of not more than 10 years and if death or serious bodily injury results from the
use of such substance shall be sentenced to a term of imprisonment of not more than 15 years, a fine not to exceed the greater
of that authorized in accordance with the provisions of Title 18 or $500,000 if the defendant is an individual or $2,500,000
if the defendant is other than an individual, or both.
(ii) If any person commits such a violation after a prior conviction for a felony drug offense has become final, such person
shall be sentenced to a term of imprisonment of not more than 20 years and if death or serious bodily injury results from
the use of such substance shall be sentenced to a term of imprisonment of not more than 30 years, a fine not to exceed the
greater of twice that authorized in accordance with the provisions of Title 18 or $1,000,000 if the defendant is an individual
or $5,000,000 if the defendant is other than an individual, or both.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX B 12

4

§ 841. Prohibited acts A, 21 USCA § 841

(iii) Any sentence imposing a term of imprisonment under this subparagraph shall, in the absence of such a prior conviction,
impose a term of supervised release of at least 2 years in addition to such term of imprisonment and shall, if there was such
a prior conviction, impose a term of supervised release of at least 4 years in addition to such term of imprisonment.
(2) In the case of a controlled substance in schedule IV, such person shall be sentenced to a term of imprisonment of not more
than 5 years, a fine not to exceed the greater of that authorized in accordance with the provisions of Title 18 or $250,000
if the defendant is an individual or $1,000,000 if the defendant is other than an individual, or both. If any person commits
such a violation after a prior conviction for a felony drug offense has become final, such person shall be sentenced to a term
of imprisonment of not more than 10 years, a fine not to exceed the greater of twice that authorized in accordance with the
provisions of Title 18 or $500,000 if the defendant is an individual or $2,000,000 if the defendant is other than an individual,
or both. Any sentence imposing a term of imprisonment under this paragraph shall, in the absence of such a prior conviction,
impose a term of supervised release of at least one year in addition to such term of imprisonment and shall, if there was such
a prior conviction, impose a term of supervised release of at least 2 years in addition to such term of imprisonment.
(3) In the case of a controlled substance in schedule V, such person shall be sentenced to a term of imprisonment of not more
than one year, a fine not to exceed the greater of that authorized in accordance with the provisions of Title 18 or $100,000
if the defendant is an individual or $250,000 if the defendant is other than an individual, or both. If any person commits
such a violation after a prior conviction for a felony drug offense has become final, such person shall be sentenced to a term
of imprisonment of not more than 4 years, a fine not to exceed the greater of twice that authorized in accordance with the
provisions of Title 18 or $200,000 if the defendant is an individual or $500,000 if the defendant is other than an individual,
or both. Any sentence imposing a term of imprisonment under this paragraph may, if there was a prior conviction, impose a
term of supervised release of not more than 1 year, in addition to such term of imprisonment.
(4) Notwithstanding paragraph (1)(D) of this subsection, any person who violates subsection (a) of this section by distributing
a small amount of marihuana for no remuneration shall be treated as provided in section 844 of this title and section 3607
of Title 18.
(5) Any person who violates subsection (a) of this section by cultivating or manufacturing a controlled substance on Federal
property shall be imprisoned as provided in this subsection and shall be fined any amount not to exceed-(A) the amount authorized in accordance with this section;
(B) the amount authorized in accordance with the provisions of Title 18;
(C) $500,000 if the defendant is an individual; or
(D) $1,000,000 if the defendant is other than an individual;
or both.
(6) Any person who violates subsection (a), or attempts to do so, and knowingly or intentionally uses a poison, chemical, or
other hazardous substance on Federal land, and, by such use--

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX B 13

5

§ 841. Prohibited acts A, 21 USCA § 841

(A) creates a serious hazard to humans, wildlife, or domestic animals,
(B) degrades or harms the environment or natural resources, or
(C) pollutes an aquifer, spring, stream, river, or body of water,
shall be fined in accordance with Title 18 or imprisoned not more than five years, or both.
(7) Penalties for distribution
(A) In general
Whoever, with intent to commit a crime of violence, as defined in section 16 of Title 18 (including rape), against an
individual, violates subsection (a) by distributing a controlled substance or controlled substance analogue to that individual
without that individual's knowledge, shall be imprisoned not more than 20 years and fined in accordance with Title 18.
(B) Definition
For purposes of this paragraph, the term “without that individual's knowledge” means that the individual is unaware that a
substance with the ability to alter that individual's ability to appraise conduct or to decline participation in or communicate
unwillingness to participate in conduct is administered to the individual.
(c) Offenses involving listed chemicals
Any person who knowingly or intentionally-(1) possesses a listed chemical with intent to manufacture a controlled substance except as authorized by this subchapter;
(2) possesses or distributes a listed chemical knowing, or having reasonable cause to believe, that the listed chemical will be
used to manufacture a controlled substance except as authorized by this subchapter; or
(3) with the intent of causing the evasion of the recordkeeping or reporting requirements of section 830 of this title, or the
regulations issued under that section, receives or distributes a reportable amount of any listed chemical in units small enough
so that the making of records or filing of reports under that section is not required;
shall be fined in accordance with Title 18 or imprisoned not more than 20 years in the case of a violation of paragraph (1) or
(2) involving a list I chemical or not more than 10 years in the case of a violation of this subsection other than a violation of
paragraph (1) or (2) involving a list I chemical, or both.
(d) Boobytraps on Federal property; penalties; “boobytrap” defined

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX B 14

6

§ 841. Prohibited acts A, 21 USCA § 841

(1) Any person who assembles, maintains, places, or causes to be placed a boobytrap on Federal property where a controlled
substance is being manufactured, distributed, or dispensed shall be sentenced to a term of imprisonment for not more than 10
years or fined under Title 18, or both.
(2) If any person commits such a violation after 1 or more prior convictions for an offense punishable under this subsection,
such person shall be sentenced to a term of imprisonment of not more than 20 years or fined under Title 18, or both.
(3) For the purposes of this subsection, the term “boobytrap” means any concealed or camouflaged device designed to cause
bodily injury when triggered by any action of any unsuspecting person making contact with the device. Such term includes
guns, ammunition, or explosive devices attached to trip wires or other triggering mechanisms, sharpened stakes, and lines or
wires with hooks attached.
(e) Ten-year injunction as additional penalty
In addition to any other applicable penalty, any person convicted of a felony violation of this section relating to the receipt,
distribution, manufacture, exportation, or importation of a listed chemical may be enjoined from engaging in any transaction
involving a listed chemical for not more than ten years.
(f) Wrongful distribution or possession of listed chemicals
(1) Whoever knowingly distributes a listed chemical in violation of this subchapter (other than in violation of a recordkeeping
or reporting requirement of section 830 of this title) shall, except to the extent that paragraph (12), (13), or (14) of section 842(a)
of this title applies, be fined under Title 18 or imprisoned not more than 5 years, or both.
(2) Whoever possesses any listed chemical, with knowledge that the recordkeeping or reporting requirements of section 830 of
this title have not been adhered to, if, after such knowledge is acquired, such person does not take immediate steps to remedy
the violation shall be fined under Title 18 or imprisoned not more than one year, or both.
(g) Internet sales of date rape drugs
(1) Whoever knowingly uses the Internet to distribute a date rape drug to any person, knowing or with reasonable cause to
believe that-(A) the drug would be used in the commission of criminal sexual conduct; or
(B) the person is not an authorized purchaser;
shall be fined under this subchapter or imprisoned not more than 20 years, or both.
(2) As used in this subsection:
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX B 15

7

§ 841. Prohibited acts A, 21 USCA § 841

(A) The term “date rape drug” means-(i) gamma hydroxybutyric acid (GHB) or any controlled substance analogue of GHB, including gamma butyrolactone
(GBL) or 1,4-butanediol;
(ii) ketamine;
(iii) flunitrazepam; or
(iv) any substance which the Attorney General designates, pursuant to the rulemaking procedures prescribed by section
553 of Title 5, to be used in committing rape or sexual assault.
The Attorney General is authorized to remove any substance from the list of date rape drugs pursuant to the same
rulemaking authority.
(B) The term “authorized purchaser” means any of the following persons, provided such person has acquired the controlled
substance in accordance with this chapter:
(i) A person with a valid prescription that is issued for a legitimate medical purpose in the usual course of professional
practice that is based upon a qualifying medical relationship by a practitioner registered by the Attorney General. A
“qualifying medical relationship” means a medical relationship that exists when the practitioner has conducted at least 1
medical evaluation with the authorized purchaser in the physical presence of the practitioner, without regard to whether
portions of the evaluation are conducted by other heath 1 professionals. The preceding sentence shall not be construed
to imply that 1 medical evaluation demonstrates that a prescription has been issued for a legitimate medical purpose
within the usual course of professional practice.
(ii) Any practitioner or other registrant who is otherwise authorized by their registration to dispense, procure, purchase,
manufacture, transfer, distribute, import, or export the substance under this chapter.
(iii) A person or entity providing documentation that establishes the name, address, and business of the person or entity
and which provides a legitimate purpose for using any “date rape drug” for which a prescription is not required.
(3) The Attorney General is authorized to promulgate regulations for record-keeping and reporting by persons handling 1,4butanediol in order to implement and enforce the provisions of this section. Any record or report required by such regulations
shall be considered a record or report required under this chapter.
(h) Offenses involving dispensing of controlled substances by means of the Internet
(1) In general

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX B 16

8

§ 841. Prohibited acts A, 21 USCA § 841

It shall be unlawful for any person to knowingly or intentionally-(A) deliver, distribute, or dispense a controlled substance by means of the Internet, except as authorized by this subchapter;
or
(B) aid or abet (as such terms are used in section 2 of Title 18) any activity described in subparagraph (A) that is not
authorized by this subchapter.
(2) Examples
Examples of activities that violate paragraph (1) include, but are not limited to, knowingly or intentionally-(A) delivering, distributing, or dispensing a controlled substance by means of the Internet by an online pharmacy that is not
validly registered with a modification authorizing such activity as required by section 823(f) of this title (unless exempt
from such registration);
(B) writing a prescription for a controlled substance for the purpose of delivery, distribution, or dispensation by means of
the Internet in violation of section 829(e) of this title;
(C) serving as an agent, intermediary, or other entity that causes the Internet to be used to bring together a buyer and seller
to engage in the dispensing of a controlled substance in a manner not authorized by sections 2 823(f) or 829(e) of this title;
(D) offering to fill a prescription for a controlled substance based solely on a consumer's completion of an online medical
questionnaire; and
(E) making a material false, fictitious, or fraudulent statement or representation in a notification or declaration under
subsection (d) or (e), respectively, of section 831 of this title.
(3) Inapplicability
(A) This subsection does not apply to-(i) the delivery, distribution, or dispensation of controlled substances by nonpractitioners to the extent authorized by
their registration under this subchapter;
(ii) the placement on the Internet of material that merely advocates the use of a controlled substance or includes pricing
information without attempting to propose or facilitate an actual transaction involving a controlled substance; or
(iii) except as provided in subparagraph (B), any activity that is limited to-© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX B 17

9

§ 841. Prohibited acts A, 21 USCA § 841

(I) the provision of a telecommunications service, or of an Internet access service or Internet information location
tool (as those terms are defined in section 231 of Title 47); or
(II) the transmission, storage, retrieval, hosting, formatting, or translation (or any combination thereof) of a
communication, without selection or alteration of the content of the communication, except that deletion of a particular
communication or material made by another person in a manner consistent with section 230(c) of Title 47 shall not
constitute such selection or alteration of the content of the communication.
(B) The exceptions under subclauses (I) and (II) of subparagraph (A)(iii) shall not apply to a person acting in concert with
a person who violates paragraph (1).
(4) Knowing or intentional violation
Any person who knowingly or intentionally violates this subsection shall be sentenced in accordance with subsection (b).
CREDIT(S)
(Pub.L. 91-513, Title II, § 401, Oct. 27, 1970, 84 Stat. 1260; Pub.L. 95-633, Title II, § 201, Nov. 10, 1978, 92 Stat. 3774;
Pub.L. 96-359, § 8(c), Sept. 26, 1980, 94 Stat. 1194; Pub.L. 98-473, Title II, §§ 224(a), 502, 503(b)(1), (2), Oct. 12, 1984, 98
Stat. 2030, 2068, 2070; Pub.L. 99-570, Title I, §§ 1002, 1003(a), 1004(a), 1005(a), 1103, Title XV, § 15005, Oct. 27, 1986,
100 Stat. 3207-2, 3207-5, 3207-6, 3207-11, 3207-192; Pub.L. 100-690, Title VI, §§ 6055, 6254(h), 6452(a), 6470(g), (h), 6479,
Nov. 18, 1988, 102 Stat. 4318, 4367, 4371, 4378, 4381; Pub.L. 101-647, Title X, § 1002(e), Title XII, § 1202, Title XXXV,
§ 3599K, Nov. 29, 1990, 104 Stat. 4828, 4830, 4932; Pub.L. 103-322, Title IX, § 90105(a), (c), Title XVIII, § 180201(b)(2)
(A), Sept. 13, 1994, 108 Stat. 1987, 1988, 2047; Pub.L. 104-237, Title II, § 206(a), Title III, § 302(a), Oct. 3, 1996, 110 Stat.
3103, 3105; Pub.L. 104-305, § 2(a), (b)(1), Oct. 13, 1996, 110 Stat. 3807; Pub.L. 105-277, Div. E, § 2(a), Oct. 21, 1998, 112
Stat. 2681-759; Pub.L. 106-172, §§ 3(b)(1), 5(b), 9, Feb. 18, 2000, 114 Stat. 9, 10, 13; Pub.L. 107-273, Div. B, Title III, §
3005(a), Title IV, § 4002(d)(2)(A), Nov. 2, 2002, 116 Stat. 1805, 1809; Pub.L. 109-177, Title VII, §§ 711(f)(1)(B), 732, Mar.
9, 2006, 120 Stat. 262, 270; Pub.L. 109-248, Title II, § 201, July 27, 2006, 120 Stat. 611; Pub.L. 110-425, § 3(e), (f), Oct. 15,
2008, 122 Stat. 4828, 4829; Pub.L. 111-220, §§ 2(a), 4(a), Aug. 3, 2010, 124 Stat. 2372; Pub.L. 115-391, Title IV, § 401(a)
(2), Dec. 21, 2018, 132 Stat. 5220.)

Footnotes
1
So in original. Probably should be “health”.
2
So in original. Probably should be “section”.
21 U.S.C.A. § 841, 21 USCA § 841
Current through P.L. 116-258. Some statute sections may be more current, see credits for details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX B 18

10

Amendment V. Grand Jury Indictment for Capital Crimes;..., USCA CONST Amend. V

United States Code Annotated
Constitution of the United States
Annotated
Amendment V. Grand Jury; Double Jeopardy; Self-Incrimination; Due Process; Takings
U.S.C.A. Const. Amend. V
Amendment V. Grand Jury Indictment for Capital Crimes; Double Jeopardy;
Self-Incrimination; Due Process of Law; Takings without Just Compensation
Currentness
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a presentment or indictment of a Grand
Jury, except in cases arising in the land or naval forces, or in the Militia, when in actual service in time of War or public danger;
nor shall any person be subject for the same offence to be twice put in jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be deprived of life, liberty, or property, without due process of law; nor shall
private property be taken for public use, without just compensation.
<Historical notes and references are included in the full text document for this amendment.>
<For Notes of Decisions, see separate documents for clauses of this amendment:>
<USCA Const. Amend. V--Grand Jury clause>
<USCA Const. Amend. V--Double Jeopardy clause>
<USCA Const. Amend. V--Self-Incrimination clause>
<USCA Const. Amend. V-- Due Process clause>
<USCA Const. Amend. V--Takings clause>
U.S.C.A. Const. Amend. V, USCA CONST Amend. V
Current through P.L. 116-258. Some statute sections may be more current, see credits for details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX C 19

1

Amendment VIII. Excessive Bail, Fines, Punishments, USCA CONST Amend. VIII

United States Code Annotated
Constitution of the United States
Annotated
Amendment VIII. Excessive Bail, Fines, Punishments
U.S.C.A. Const. Amend. VIII
Amendment VIII. Excessive Bail, Fines, Punishments
Currentness
Excessive bail shall not be required, nor excessive fines imposed, nor cruel and unusual punishments inflicted.
U.S.C.A. Const. Amend. VIII, USCA CONST Amend. VIII
Current through P.L. 116-258. Some statute sections may be more current, see credits for details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX C 20

1

